Audit Report




OIG-11-111
RECOVERY ACT: Audit of Inadale Wind Farm LLC Payment
Under 1603 Program
September 30, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
 
Contents


Audit Report

  Results in Brief ............................................................................................. 1

  Background ................................................................................................. 2

  Objectives, Scope, and Methodology…………………………………………………… ... 3

  Audit Results ............................................................................................... 4

  Recommendations…………………………………………………………………………….. 7

Appendices

  Appendix     1:      Schedule of Questioned Costs.................................................. 9
  Appendix     2:      Inadale Wind Farm LLC’s Response .......................................... 10
  Appendix     3:      Management’s Response ........................................................ 15
  Appendix     4:      Major Contributors to This Report ............................................17
  Appendix     5:      Report Distribution ................................................................. 18




Abbreviations

  E.ON                 E.ON Climate and Renewables North America
  Inadale              Inadale Wind Farm, LLC
  IPA                  Independent public accountant
  IRS                  Internal Revenue Service
  NREL                 National Renewable Energy Laboratory
  OFAS                 Office of the Fiscal Assistant Secretary
  OIG                  Office of Inspector General
  Recovery Act         American Recovery and Reinvestment Act of 2009
  Treasury             Department of the Treasury
  Treas. Reg.          Treasury Regulation




                       Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)              Page i
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                      Audit
OIG
The Department of the Treasury
                                                                                      Report
Office of Inspector General




                      September 30, 2011

                      Richard L. Gregg
                      Fiscal Assistant Secretary

                      As part of our ongoing oversight of the Department of the
                      Treasury’s (Treasury) 1603 Program – Payments for Specified
                      Energy Property in Lieu of Tax Credits (1603 Program) 1 authorized
                      by the American Recovery and Reinvestment Act of 2009
                      (Recovery Act), 2 we are conducting audits of selected award
                      recipients. In this regard, we have audited the award made to
                      Inadale Wind Farm, LLC (Inadale), for a wind energy facility near
                      Roscoe, Texas. Inadale submitted its claim for payment in lieu of
                      tax credit in the amount of $94,163,024 on December 30, 2009,
                      and was awarded that amount by Treasury on January 25, 2010.
                      Our audit objectives were to assess the eligibility and accuracy of
                      that award by determining whether (1) the property existed, (2) the
                      property was placed into service during the eligible timeframe, and
                      (3) the award amount was appropriate.


Results in Brief
                      We verified that the subject property described by Inadale in its
                      1603 Program application does exist and that it was placed in
                      service on April 1, 2009, which was within the eligible timeframe.
                      We also concluded that the award amount was appropriate, with
                      one minor exception, after management provided clarification of

1
  Treasury’s Office of the Fiscal Assistant Secretary (OFAS) administers this program.
2
  Pub. L. No. 111-5, 123 Stat. 115 (Feb. 17, 2009). Under section 1603 of the Recovery Act, Treasury
makes grants (payments) to eligible persons who place in service specified energy property and apply
for such payments. The purpose of the payment is to reimburse eligible applicants for a portion of the
expense of such property and is made in lieu of tax credits that could have been potentially claimed by
the awardees.



                      Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)     Page 1
                       certain applicable tax provisions through its response to this draft
                       audit report. In the draft report, we questioned $2,309,155 of
                       Inadale’s $313,876,745 reported cost basis ($692,747 of the
                       award amount) which related to turbine spare parts, other spare
                       parts and tools, and a “Balance to Tie” amount. At the time we
                       issued our draft report, we believed these costs were ineligible
                       based on our initial interpretation of those applicable tax provisions.

                       After reviewing management’s response, which clarified the
                       applicable tax provisions governing spare parts, we no longer
                       question their eligibility under the 1603 Program. However, we
                       continue to question the “Balance to Tie” amount of $2,038 ($611
                       of the award amount) as an unsupported cost and are
                       recommending that OFAS (1) ensure that Inadale reimburse
                       Treasury $611 for the excess 1603 Program payment received;
                       and (2) direct Inadale, E.ON Climate and Renewables North
                       America (E.ON), and affiliated companies not to include in
                       applications for 1603 Program awards inappropriate or otherwise
                       ineligible costs.

                       Treasury management concurred with our recommendations and
                       agreed that Inadale should reimburse Treasury $611 associated
                       with the “Balance to Tie” amount. Inadale’s and Treasury’s
                       management responses to our draft audit report are provided in
                       appendices 1 and 2, respectively.


Background
                       Eligibility Under the 1603 Program

                       Applicants are eligible for a 1603 Program award if specified
                       energy properties are placed in service during calendar years 2009,
                       2010, or 2011, 3 and the amount awarded is in accordance with
                       applicable provisions of the Internal Revenue Code of 1986 for
                       determining cost basis. Under the 1603 Program, applicants submit
                       an application to Treasury that reports the total eligible cost basis

3
 Section 707 of the “Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of
2010,” extended Treasury’s 1603 Program for 1 year. To be eligible, a property must be placed in
service in 2009, 2010, or 2011 or placed in service after 2011 but only if construction of the property
began during 2009, 2010, or 2011. The application deadline was extended to September 30, 2012.


                       Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)     Page 2
                       of the specified energy property placed in service. If approved,
                       award amounts are based on a percent of that eligible cost basis.
                       For the type of property claimed by Inadale, the percentage of cost
                       basis eligible for award is 30 percent. According to OFAS program
                       guidance, the cost basis of the subject property is determined in
                       accordance with the general rules for determining the cost basis of
                       property for federal income tax purposes. Specifically, for this type
                       of subject property, applicants follow the capitalization procedures
                       found in Treasury Regulation (Treas. Reg) §1.263A-1, “Uniform
                       Capitalization of Costs.” 4

                       Inadale

                       Inadale is a 197 megawatt wind farm near Roscoe, Texas. Inadale
                       uses 197 Mitsubishi MWT62/1000A wind turbines. The parent
                       company of Inadale is E.ON located in Chicago, Illinois. E.ON
                       manages the Inadale wind farm and is also the parent company of
                       two other wind farms in Texas that were awarded 1603 Program
                       payments. 5

Objectives, Scope, and Methodology
                       To assess the eligibility and accuracy of awards made to Inadale
                       under the 1603 Program, we determined whether (1) the property
                       exists, (2) the property was placed into service during the eligible
                       timeframe, and (3) the award amount was appropriate.

                       In performing our work, we visited Inadale’s parent company, E.ON
                       in Chicago, Illinois; interviewed key personnel of E.ON, and key
                       personnel associated with Inadale’s independent public accountant
                       (IPA). We also reviewed the application, production reports,
                       invoices, contracts and other documents provided to the
                       Department of Energy’s National Renewable Energy Laboratory




4
  Treas. Reg.§1.263A-1(a)(3)(ii), Property produced: “Taxpayers that produce real property and tangible
personal property (producers) must capitalize all the direct costs of producing the property and the
property's properly allocable share of indirect costs (described in paragraphs (e)(2)(i) and (3) of this
section), regardless of whether the property is sold or used in the taxpayer's trade or business.”.
5
  Pyron Wind Farm LLC and Panther Creek III Wind Farm LLC


                       Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)     Page 3
                       (NREL) 6 to support the property’s existence, its placed in service
                       date, and the costs claimed by Inadale. We also obtained
                       clarification from OFAS and Internal Revenue Service (IRS)
                       personnel on eligible costs under the program. We performed our
                       work between April 2010 and May 2011.

                       Our audit was conducted in accordance with generally accepted
                       government auditing standards for performance audits. Those
                       standards require that we plan and perform an audit to obtain
                       sufficient, appropriate evidence to provide a reasonable basis for
                       our findings and conclusions based on our audit objectives. We
                       believe that the evidence obtained provides a reasonable basis for
                       our findings and conclusions based on our audit objectives.


Audit Results
                       Inadale submitted a cost segregation and Section 1603 payment
                       eligibility analysis 7 to Treasury that was prepared by E.ON’s IPA on
                       behalf of Inadale. The cost segregation analysis included the
                       property’s classification for depreciation purposes and all costs that
                       made up its cost basis. The Section 1603 payment eligibility
                       analysis identified $313,876,745 of costs in the property’s cost
                       basis that Inadale believed were eligible for payment under
                       Treasury’s 1603 Program.

                       In our draft audit report, we questioned the appropriateness of
                       Inadale’s claimed costs of $2,277,041 for turbine spare parts,
                       $30,076 for other spare parts and tools and $2,038 for a “Balance
                       to Tie” amount in its cost basis that resulted in $692,747 of its
                       1603 Program award. These items were purchased from October
                       2009 through December 2009, subsequent to placing the subject



6
  NREL is a national laboratory of the Department of Energy. Under an interagency agreement between
Treasury and the Department of Energy, NREL performs the technical review of 1603 Program
applications and advises Treasury on award decisions.
7
  The cost segregation and Section 1603 payment analysis was prepared for the purposes of classifying
property for Federal income tax depreciation or amortization purposes and determining the eligibility for
a cash grant in lieu of tax credit provided by Section 1603 of the American Recovery and Reinvestment
Act of 2009. The analysis included reviews of certain project cost data and engineering drawings
provided by E.ON and discussions with management of E.ON.


                       Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)      Page 4
                      property in service on April 1, 2009. 8 After receiving clarification
                      through Treasury management’s response on the tax provisions
                      governing spare parts, we no longer question the eligibility of spare
                      parts under the 1603 Program.

                      Initially, it was our understanding that to be included in the cost
                      basis, as specified in Treas. Reg. §1.263A-1, the parts must be
                      necessary to produce the property. Based on discussions with an
                      IRS official, spare parts and energy property are two separate and
                      distinct assets with separate cost bases with no justification in tax
                      law for classifying them as the same unit. As a result, the cost of
                      the spare parts and tools should not be included as part of
                      Inadale’s subject property’s cost basis.

                      After reviewing our draft report, Inadale management did not
                      concur with our assessment of the ineligibility of spare parts. In its
                      response, Inadale stated that spare parts should be considered
                      “specified energy property” as defined in Treasury’s 1603 Program
                      Guidance 9 and in Treas. Reg. §1.48-9(e)(1), and therefore, qualify
                      for inclusion in the property’s cost basis. In addition to qualifying
                      as energy property, spare parts are considered parts related to the
                      functioning of the integrated wind farm, integral to the overall
                      facility, and should not be viewed as a separate asset. Lastly,
                      Inadale management believes that spare parts meet the definition
                      of repairs and maintenance as defined by Treas. Reg. 1.263A-
                      1(e)(3)(ii)(O), and that all spare parts included in the 1603 cost
                      basis also meet the definition of “Emergency Spare Parts” as
                      defined by Rev. Rul. 81-185. See appendix 1 for Inadale’s
                      response.

                      Based on our evaluation of Inadale’s response, we maintained that
                      spare parts and the subject energy property were two separate and
                      distinct assets with separate cost bases and different “placed in
                      service” dates. We believed at the time that the spare parts in
                      question were not an integral part of the wind farm and should not
                      have been considered specified energy property under Treasury’s

8
  Treasury Program Guidance, IV. Property and Payments Eligibility, A. Placed in Service…”Placed in
service means that the property is ready and available for its specific use.”
9
  Treasury’s Payments for Specified Energy Property in Lieu of Tax Credits under the American
Recovery and Reinvestment Act of 2009 Program Guidance, IV. Property and Payment Eligibility Part I.
Types of Property


                      Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)   Page 5
                       1603 Program. We based this on our interpretation of Rev. Rul. 81-
                       185 which concludes that standby emergency spare parts are to be
                       capitalized and depreciated when the parts are acquired and set
                       aside as emergency replacement parts. Emergency spare parts are
                       considered placed in service when they are placed in a condition or
                       state of readiness and availability for an assigned function. Placed-
                       in-service is addressed in Treas. Reg. §1.46-3(d)(2) 10 which makes
                       the distinction between the in service dates of materials and parts
                       acquired for use in the construction of equipment and parts used as
                       replacements to avoid time loss. In Inadale’s case, the spare parts
                       in question were not in a condition or a state of readiness and
                       availability at the time of construction. Instead, they were
                       considered replacements to avoid time loss since they were
                       purchased well after placing the subject property in service on April
                       1, 2009. Therefore, we believed that they should have been
                       capitalized as separate depreciable assets.

                       Furthermore, Inadale’s spare parts were not necessary to produce
                       the subject property nor were they indirect repair and maintenance
                       costs, as outlined in Treas. Reg.§1.263A-1, and they are not
                       functionally interdependent components of the subject property.
                       According to Treasury’s Program Guidance, components of a larger
                       property are a single unit if the components are functionally
                       interdependent. Components are functionally interdependent if the
                       placing in service of each component is dependent on the placing
                       in service of the other component. Inadale’s questioned spare parts
                       were purchased 6 to 8 months after the subject property was
                       placed in service, and commercial operations had begun.
                       Accordingly, the spare parts were not functionally interdependent
                       components of the subject property and could not be used to
                       directly or indirectly produce the property already in service.

                       Therefore, our initial conclusion was that the spare parts in
                       question were not necessary to place the subject property in
                       service since they were purchased after commencing operations. In
                       its response to our draft audit report, Treasury management
                       provided a detailed clarification of the tax guidance on which we
                       based our evaluation of the spare parts. Management concluded

10
  Treas. Reg. §1.46-3(d) establishes the placed in service rules for qualified investment property for
investment tax purposes. Treas. Reg. §1.167(a)-11(e)(1)(i) references the provisions of Treas. Reg.
1.46-3(d)(1)(ii) and (d)(2) to determine the date property is placed in service.


                       Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)       Page 6
           that the costs of the spare parts in question were eligible because
           they were a part of a qualified facility under IRC §45 and were in
           service at the time of the Inadale’s 1603 Program application. See
           appendix 2 for Treasury’s management response.

           After receiving clarification on the tax provisions governing spare
           parts, we no longer question the eligibility of Inadale’s spare parts.

           We continue to question the “Balance to Tie” amount of $2,038
           that Inadale included in the subject property’s cost basis as
           provided by its IPA. This amount remains unsupported as Inadale
           was unable to provide supporting documentation, and therefore the
           amount should not be included in the subject property’s cost basis.

           Inadale Response

           Inadale management did not contest the proposed adjustment to
           cost basis related to miscellaneous costs in the amount of $2,038,
           and therefore, proposed to refund to Treasury $611 (i.e. 30
           percent of $2,038).

           OIG Comment

           Inadale management concurred with our proposed adjustment to
           cost basis for the “Balance to Tie” amount.

           See appendix 2 for Inadale’s detailed response.


Recommendations
           We recommend that the Fiscal Assistant Secretary do the
           following:

            1. Ensure that Inadale reimburses Treasury $611 for the excess
               1603 Program payment received for the subject property.

            2. Direct Inadale, its parent E.ON, and affiliated companies not to
               include in applications for 1603 Program awards inappropriate
               or otherwise ineligible costs.




           Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)   Page 7
Management Response

Treasury management concurred with our recommendations and
agreed that Inadale should reimburse Treasury $611 for the
“Balance to Tie” amount.

OIG Comment

Management’s response meets the intent of our recommendations.



                                ******

The information in this report should not be used for purposes
other than what was originally intended without prior consultation
with the Office of Inspector General regarding its applicability.
Information contained in this report may be confidential. The
restrictions of 18 U.S.C. §1905 should be considered before the
information is released to the public. We appreciate the courtesies
and cooperation provided to our staff during the audit. If you wish
to discuss this report, you may contact me at (202) 927-5400 or
Donna Joseph, Audit Director, at (202) 927-5784. Appendix 4 lists
the major contributors to this report.

/s/

Marla A. Freedman
Assistant Inspector General for Audit




Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)   Page 8
Appendix 1
Schedule of Questioned Costs




A questioned cost is a cost that is questioned by the auditor
because of an audit finding: (1) which resulted from an alleged
violation or possible violation of a provision of a law, regulation,
contract, grant, cooperative agreement, or other agreement or
document governing the use of Federal funds, including funds used
to match Federal funds; (2) where the cost, at the time of the
audit, is not supported by adequate documentation; or (3) where
the cost incurred appear unreasonable and do not reflect the
actions a prudent person would take in the circumstances.
Questioned costs are to be recorded in the Joint Audit
Management Enterprise System (JAMES). The questioned costs
will also be included in the next Office of Inspector General
Semiannual Report to the Congress.

Recommendation Number                             Questioned Costs

Recommendation 1                                  $611

The questioned costs relate to excess funds that Treasury awarded
to Inadale under the 1603 Program. The amount questioned is 30
percent of the excess costs included in Inadale’s cost basis. As
discussed in the audit report, the questioned costs in the cost basis
consist of $2,038 associated with a “Balance to Tie” amount that
is unsupported.




Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)   Page 9
Appendix 2
Inadale Wind Farm LLC’s Response




Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)   Page 10
Appendix 2
Inadale Wind Farm LLC’s Response




Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)   Page 11
Appendix 2
Inadale Wind Farm LLC’s Response




Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)   Page 12
Appendix 2
Inadale Wind Farm LLC’s Response




Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)   Page 13
Appendix 2
Inadale Wind Farm LLC’s Response




Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)   Page 14
Appendix 3
Management’s Response




Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)   Page 15
Appendix 3
Management’s Response




Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)   Page 16
Appendix 4
Major Contributors To This Report


Donna Joseph, Director
Cynthia Milanez, Audit Manager
Erica Wardley, Audit Manager
James Hodge, Auditor-in-Charge
Cheryl Sroufe, Auditor
Lisa Carter, Auditor
Roberta Wright, Auditor
Susan Roy, Referencer
Theresa Cameron, Referencer




Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)   Page 17
Appendix 5
Report Distribution


Department of the Treasury

   Assistant Secretary for Management of the Treasury,
      Chief Financial Officer, and Chief Performance Officer
   Fiscal Assistant Secretary
   Deputy Chief Financial Officer
   Director, Office of Accounting and Internal Controls
   Deputy Director, Office of Performance Budgeting
   Program Manager, Office of Fiscal Assistant Secretary

Office of Management and Budget

   OIG Budget Examiner

E.ON Climate and Renewables North America

   Vice President, Investment Analysis




Audit of Inadale Wind Farm LLC Payment Under 1603 Program (OIG-11-111)   Page 18
THIS PAGE INTENTIONALLY LEFT BLANK
